No. 20-1574
IN THE

Supreme Court of the United States
JOSEPH OCOL,

Petitioner,

v.
CHICAGO TEACHERS UNION, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN
OPPOSITION FOR RESPONDENTS CHICAGO TEACHERS UNION AND
AMERICAN FEDERATION OF TEACHERS in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5,152 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 9, 2021.
/s/ Joshua B. Shiffrin
JOSHUA B. SHIFFRIN
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jshiffrin@bredhoff.com
Counsel for Respondents Chicago Teachers Union
and American Federation of Teachers

